Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Alameda County Sheriff's Department, Oakland, California
GR-90-00-006
October 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Alameda County Sheriff's Department, California (ACSD).  The purpose of the grants is to enhance community policing.  The ACSD was awarded a total of $1,001,015 to hire 12 new deputy sheriffs and redeploy the equivalent of 4 existing full-time deputy sheriffs from administrative duties to community policing.

We reviewed the ACSD's compliance with eight essential grant conditions.  We found the grantee's budgeting, hiring, reimbursement requests, retention plan, and community policing to be acceptable.  Because the equipment for the MORE 96 grant was not fully operational, we were unable to determine whether officer redeployment was acceptable. However, we found weaknesses in two other areas as identified below.  As a result, we question $128,704. 

Based on the Office of Justice Program's (OJP) Financial Clearance Memorandum, the grantee did not meet the approved percentage rate for the local matching funds for the completed AHEAD grant which resulted in $128,704 1 in questioned costs. 

	Several status reports were either not accurate, not timely, or not filed. 
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnotes
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.